TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                               Office of Inspections and Evaluations




                           Review of Criminal Investigation’s
                              Relocation Incentives and
                             Post of Duty Neutral Program



                                          November 27, 2012

                              Reference Number: 2013-IE-R002




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 3d=Identifying Information – Other identifying information of an individual
 5=Information concerning a pending law enforcement proceeding




 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                  DEPARTMENT OF THE TREASURY
                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         November 27, 2012


 MEMORANDUM FOR CHIEF, CRIMINAL INVESTIGATION

 FROM:                       R. David Holmgren
                             Deputy Inspector General for Inspections and Evaluations

 SUBJECT:                    Final Inspection Report – Review of Criminal Investigation’s
                             Relocation Incentives and Post of Duty Neutral Program (#IE-12-003)

 This report presents the results of our inspection to determine whether decisions made to relocate
 Criminal Investigation (CI) executives and senior managers, or reassign their posts of duty
 (POD) to POD neutral, complied with travel policies, procedures, and regulations.

 Synopsis
 We found that improvements are needed in CI’s use of relocation incentives and the
 implementation of the POD Neutral Program. CI has encouraged its employees to relocate to the
 National Headquarters office in Washington, D.C., to gain national experience as part of its draft
 Special Agent Leadership Strategy. As a result, CI has significantly increased the amount of
 permanent change of station (PCS) and temporary change of station (TCS) relocation incentives
 granted to its employees by almost $1.2 million (407 percent) over five years (2007 through
 2011). The increase is largely attributed to CI’s use of TCS relocation incentives granted to
 employees to relocate for positions in Washington, D.C., or other locations deemed difficult to
 fill. CI accounts for the majority of Internal Revenue Service (IRS) relocation incentives, and
 CI’s basis for relocating employees has resulted in 22 employees receiving 44 relocation
 incentives totaling nearly $1.3 million between Calendar Years (CY) 2007 and 2011.
 We found the relocation incentive requests we reviewed adequately documented the special or
 unique competencies required for the position and demonstrated how the individual was
 qualified for the position. However, we believe the decision to pay the incentive would be
 stronger if the documentation included a list of applicants who applied for the position and
 information related to their qualifications.
                                Review of Criminal Investigation’s
                      Relocation Incentives and Post of Duty Neutral Program



In June 2011, the Office of Personnel Management and the Office of Management and Budget
mandated that agencies must not exceed CY 2010 spending levels on the relocation incentives
during CYs 2011 and 2012.1 As a result, the IRS budget no longer supports CI’s prior relocation
strategy with its expanded use of relocation incentives.
Requests for relocation incentives should have four levels of review and approval: Certification
Manager, Secondary Review, Embedded Human Capital Office Technical Review, and
Approver. We found two cases where the certification managers did not recommend approval
for two relocation incentive requests. However, the secondary reviewer approved the request
without documenting the basis for disregarding the recommendations made by the certification
managers. Additionally, we found that two requests were not properly approved.
On September 9, 2011, CI received approval from the Chief Financial Officer for employees to
participate in a reduced per diem pilot program. The POD Neutral Program was designed to
allow the IRS to address human capital challenges and reduce costs by allowing employees to
incur travel expenses at reduced per diem. We identified significant weaknesses within the POD
Neutral Program. CI has not finalized the policy, identified the employee requirements to
participate in the program, or defined the metrics to evaluate the program’s effectiveness. CI has
not documented the methodology used for the reduced per diem rates, and the policy is not
consistently applied among program participants. Because only four CI employees participated
in the program, we believe CI may not have sufficient program participation necessary to assess
the effectiveness of the program, and the program may lead to an increase in travel expenses as a
result of employees’ frequent travel to CI offices from remote PODs.

Recommendations
We recommended that the Chief, CI, require that managers provide additional information to
support the need for a relocation incentive, enhance the relocation incentive request to include
the candidates who applied for the position, evaluate the effectiveness of TCS and PCS
assignments as part of CI’s succession planning, revise and finalize the Special Agent Leadership
Strategy, and require that a memorandum is prepared when the certification manager does not
recommend the approval of a relocation incentive request.
We recommended that the Chief, CI, ensure that the policy for the POD Neutral Program is
revised and finalized and contains the methodology used for the reduced per diem rates, the
requirements for successful program participation, and the performance measures to evaluate the
program’s effectiveness. The Chief, CI, should collect data over the duration of the pilot
program and conduct an analysis to determine the cost effectiveness of the Program. The Chief,


1
 Office of Personnel Management, CPM 2011-10, Memorandum for Heads of Executive Departments and
Agencies: Guidance on Awards for Fiscal Years 2011 and 2012 (June 10, 2011).
                                                                                                   2
                               Review of Criminal Investigation’s
                     Relocation Incentives and Post of Duty Neutral Program



CI, should also ensure that the POD Neutral Agreement Form is enhanced and agreements are
prepared and timely approved.

Response
CI management agreed with all of the recommendations in the report. The Chief, CI, plans to
assess the effectiveness of the TCS and PCS assignments, and review and revise CI’s mobility
policies. Additionally, the Chief plans to ensure that documentation to support the relocation
incentive includes the pool of candidates that applied for the position, as applicable. The Chief
also plans to evaluate the cost effectiveness and viability of the CI POD Neutral Program. If the
POD Neutral Program is deemed viable, CI plans to ensure that the program’s policies and
procedures are enhanced. Management’s complete response to the memorandum is included in
Appendix VI.
Please contact me at (202) 927-7048 if you have questions, or Kevin P. Riley, Director, Office of
Inspections and Evaluations, at (972) 249-8355.




                                                                                                3
                                      Review of Criminal Investigation’s
                            Relocation Incentives and Post of Duty Neutral Program




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Criminal Investigation Increased Its Use of Relocation
          Incentive Authority to Manage Its Workforce .............................................. Page 3
                    Recommendations 1 and 2: .............................................. Page 9

                    Recommendation 3:........................................................ Page 11

                    Recommendation 4:........................................................ Page 12

          The Draft Policy for the Post of Duty Neutral Program
          Contains Significant Weaknesses, and Program Goals
          Have Not Been Established Fully ................................................................. Page 12
                    Recommendations 5 through 7:......................................... Page 14


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 15
          Appendix II – Major Contributors to This Report ........................................ Page 17
          Appendix III – Report Distribution List ....................................................... Page 18
          Appendix IV – Relocation Incentives by Internal Revenue Service
          Business Unit for Calendar Years 2007 Through 2011 ................................ Page 19
          Appendix V – Criminal Investigation Leadership Development
          Program – Experience Requirements............................................................ Page 20
          Appendix VI – Management’s Response to the Draft Report ...................... Page 21
                Review of Criminal Investigation’s
      Relocation Incentives and Post of Duty Neutral Program




                  Abbreviations

CFO         Chief Financial Officer
CI          Criminal Investigation
CY          Calendar Year
IRS         Internal Revenue Service
PCS         Permanent Change of Station
POD         Post of Duty
TCS         Temporary Change of Station
                                  Review of Criminal Investigation’s
                        Relocation Incentives and Post of Duty Neutral Program




                                             Background

Criminal Investigation (CI) relocates employees to new posts of duty (POD) to help achieve its
mission and develop future leaders for senior management positions within CI. An employee
who relocates to a new POD in the interest of the Government may obtain reimbursement for
specific expenses incident to the relocation. Reimbursable relocation expenses can include those
related to a house hunting trip, the sale of a home, and the shipment of household goods.
In addition to relocation expenses, an agency has the authority to offer relocation incentives1 to
employees with unique skills or in difficult-to-recruit
positions. A relocation incentive is a payment of up to
25 percent of the employee’s annual basic pay for each year of           An agency should offer
the service period to offset the cost of relocation for the           a relocation incentive only in
purpose of accepting a specific position. An agency should              very limited and unusual
offer a relocation incentive only in very limited and unusual           circumstances       when it is
                                                                         difficult to fill a position.
circumstances when it is difficult to fill a position. CI
management indicated that in many cases some positions are
difficult to fill because the relocations require employees to accept positions with more
responsibility and no increase in pay.
In June 2011, when CI had already granted some relocation incentives to its employees, the
Office of Personnel Management and the Office of Management and Budget mandated that
agencies must not exceed Calendar Year (CY) 2010 spending levels for incentives related to
relocation, recruitment, and retention during CYs 2011 and 2012.2 CI management stated these
restrictions had a direct impact on its ability to offer relocation incentives for difficult-to-fill
positions. Therefore, with the approval of the Internal Revenue Service (IRS) Chief Financial
Officer (CFO), CI made the decision that some senior manager positions may be announced
under its POD Neutral Program. The POD Neutral Program was expected to allow CI to address
human capital challenges and reduce costs by allowing employees to remain in their current POD
and travel as needed but at reduced per diem amounts.3
This review was performed in CI at the IRS National Headquarters in Washington, D.C., during
the period March through July 2012. We conducted this inspection in accordance with the
Council of the Inspectors General for Integrity and Efficiency Quality Standards for Inspections.


1
  Relocation incentives are authorized under 5 U.S.C. 5753 and 5754 and 5 C.F.R. part 575.
2
  Office of Personnel Management, CPM 2011-10, Memorandum for Heads of Executive Departments and
Agencies: Guidance on Awards for Fiscal Years 2011 and 2012 (June 10, 2011).
3
  Per diem is a daily allowance for expenses; a specific amount of money that an organization gives an individual
per day to cover living and traveling expenses in connection with work done away from home or POD.
                                                                                                            Page 1
                               Review of Criminal Investigation’s
                     Relocation Incentives and Post of Duty Neutral Program



Detailed information on our objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II. The breakout of relocation incentives
by IRS business unit is listed in Appendix IV.




                                                                                           Page 2
                                  Review of Criminal Investigation’s
                        Relocation Incentives and Post of Duty Neutral Program




                                      Results of Review

The IRS’s CI has used relocation incentives and permanent and temporary changes of station to
develop and maintain a qualified workforce, leverage resources, and balance organizational
needs. However, CI has not finalized its pilot POD Neutral Pilot Program or its overall
relocation strategy and policies. While we identified a few procedural inconsistencies, we found
that CI generally adhered to Federal travel regulations.

Criminal Investigation Increased Its Use of Relocation Incentive
Authority to Manage Its Workforce
To develop its employees, CI has granted employees relocation incentives to move to the
National Headquarters and to various locations that are deemed difficult to fill. However, CI
must consider revising its current human capital strategy to conserve limited Government
resources. Additionally, CI has not documented its relocation strategy within the Special Agent
Leadership Strategy or assessed the impact of relocations on workforce planning goals.4 The
IRS has not finalized its relocation policies.
CI implemented the POD Neutral Pilot Program in October 2011 to help manage its workforce
and reduce the need to relocate CI employees. According to CI’s leadership strategy, the POD
Neutral Program allows senior manager positions to be announced as POD neutral because
expanded use of technology allows CI the flexibility of remote management in some cases.
Managers will frequently travel to IRS National Headquarters, field offices, or other base
locations on reduced per diem to ensure program requirements are met. We found that the policy
for the POD Neutral Program is not finalized and several key elements are missing. When
policies affecting staff are not fully developed, IRS officials cannot ensure that management
decisions are made fairly and equitably, and CI cannot ensure that program goals are met and
Government resources are protected.

CI’s staffing decisions and leadership development program increase the need to
relocate its employees
Use of relocation incentives should be reserved for those rare and critical instances when
relocation of an individual to a particular position would support significant mission objectives
of the IRS. According to CI management officials, CI employees relocate more often than other


4
  CI’s draft Special Agent Leadership Strategy provides a framework that contains selection, development, and
succession planning guidelines. It supports CI’s commitment to hiring, developing, motivating, and retaining
leaders with diverse skills and abilities.
                                                                                                           Page 3
                              Review of Criminal Investigation’s
                    Relocation Incentives and Post of Duty Neutral Program



IRS employees due to the nature of their work. As Federal law enforcement officers, all special
agents are required to sign a mobility agreement. According to the mobility agreement, special
agents must be available for both temporary assignments and permanent reassignments to any
location within the IRS’s jurisdiction as the needs of the IRS dictate.
Additionally, relocations within CI are also required due to CI’s leadership development
program, which outlines the level of experience required to qualify for positions as senior
managers and executives within CI. To be able to gain the experience needed to obtain a senior
manager or executive position, some rotation through CI is necessary. Appendix V illustrates the
experience required to obtain positions as senior managers and executives. From CYs 2007
through 2011, approximately 50 percent of the relocation incentives paid to CI employees
($2.2 million of $4.3 million) related to relocations to Washington, D.C., CI Headquarters. CI
has recently modified the experience requirements, and National Headquarters experience is no
longer mandatory for some senior management positions. However, the revised strategy states
National Headquarters program management experience is highly desirable for senior managers,
and executives are required to have National Headquarters experience.
As a result, CI’s use of relocation incentives is significantly higher than that of other IRS
business units. CI accounted for 156 (67 percent) of the 233 relocation incentives granted to IRS
employees between CYs 2007 and 2011 (see Appendix IV). During this five-year period, CI
authorized between 54 and 83 percent of the total dollars for relocation incentives granted to IRS
employees. Figure 1 documents relocation incentives paid to CI employees and employees in
other IRS business units, and the percentage of relocation incentives paid to CI employees for
CYs 2007 through 2011.




                                                                                           Page 4
                                                                        Review of Criminal Investigation’s
                                                              Relocation Incentives and Post of Duty Neutral Program



                                                      Figure 1: Relocation Incentive Amounts Paid in CYs 2007–2011
  Percent of Incentives Paid to CI Employees




                                               100%
                                               90%                                                         $259,244 
                                                                                                                         $509,475 
                                               80%                     $313,445        $322,382 
                                                          $247,223                                          83%
                                               70%
                                                                                                                          74%
                                               60%                      66%             66%
                                               50%
                                                            54%
                                               40%                                                        $1,244,630 
                                                                                                                        $1,484,177 
                                               30%                     $616,772        $628,683 
                                                          $292,821 
                                               20%
                                               10%
                                                0%
                                                           CY 2007     CY 2008         CY 2009             CY 2010       CY 2011
                                                                              CI   Other Business Units
 Source: CI and the IRS Human Capital Office.

In many cases, CI’s basis for relocating employees has resulted in employees receiving more
than one relocation incentive in a relatively short period of time. We identified 22 employees
who each received two relocation incentives totaling nearly $1.3 million between CYs 2007 and
2011. During this time period, the employees received relocation incentives that ranged from
$42,000 to $82,867. Within an average of 26.3 months, CI authorized an incentive for each
employee to relocate to a new POD and then authorized a second incentive to relocate to another
POD.
In two cases we reviewed, CI authorized a relocation incentive to move an employee to a new
POD and authorized another incentive to return the employee to the previous POD. In one of
these cases, CI approved more than $75,000 in two relocation incentives to move an employee
from *****Code Number 3d*****. The employee worked in *****Code Number 3d***** for
approximately 14 months prior to his return to *****Code Number 3d*****for a different
position.
In another case, CI authorized relocation incentives of more than $115,000 to move an employee
from *****Code Number 3d***** within 24 months. In *****Code Number 3d*****, CI
approved a $37,705 relocation incentive for the employee to move to *****Code Number
3d*****. We were informed that, although the employee moved to *****Code Number
3d***** the employee maintained a home in *****Code Number 3d*****. In *****Code
Number 3d*****, CI approved a $77,750 relocation incentive (to be paid over two years) for the
employee to move back to *****Code Number 3d*****, to accept a position with more
responsibilities as the *****Code Number 3d*****.


                                                                                                                                     Page 5
                                Review of Criminal Investigation’s
                      Relocation Incentives and Post of Duty Neutral Program



In June 2011, the Office of Personnel Management and the Office of Management and Budget
mandated that the amount agencies could spend on relocation incentives, as well as retention and
recruitment incentives, could not exceed the amounts spent in CY 2010. On June 22, 2011, the
IRS Human Capital Office issued a notification advising that, effective immediately, the Deputy
Commissioners will be the approval authority for nonexecutive relocation incentive requests
(and will remain the approving official for executive relocation incentives). This new policy was
intended to help ensure that relocation incentives are consistently approved and relocation
incentives are maintained at CY 2010 levels. Because of these restrictions, CI concluded the IRS
budget no longer supported CI’s prior relocation strategy with its expanded use of relocation
incentives.

Relocation expenses declined while relocation incentives increased significantly
In Fiscal Year 2007, CI employees filed claims for relocation expenses for approximately
$7.4 million. By Fiscal Year 2011, claims for relocation expenses for CI employees totaled
about $6.5 million, which is a decrease of nearly $898,582, or a 12 percent decrease. Employees
can submit claims for relocation expenses for two or more years after reporting to a new POD.
Therefore, claims reported in one fiscal year may not relate to relocations that occurred during
that year. Figure 2 documents the relocation expenses claimed from Fiscal Years 2007 through
2011.
      Figure 2: CI’s Relocation Expenses Claimed for Fiscal Years 2007–2011

        $9,000,000
                                     $7,797,760    $8,069,951 
        $8,000,000     $7,424,430 
        $7,000,000                                                $6,316,915    $6,525,848 
        $6,000,000
        $5,000,000
        $4,000,000
        $3,000,000
        $2,000,000
        $1,000,000
               $0
                          2007          2008          2009          2010           2011

      Source: Office of the CFO.

If an agency determines a position is difficult to fill, an agency can pay a relocation incentive to
an employee who relocates to a POD in a different geographic area permanently or temporarily.
In CY 2007, CI relocation incentives were $292,821. By CY 2011, relocation incentives were


                                                                                              Page 6
                                  Review of Criminal Investigation’s
                        Relocation Incentives and Post of Duty Neutral Program



approximately $1.5 million, which is an increase of almost $1.2 million (a 407 percent increase).
Figure 3 documents the relocation incentive totals paid from CYs 2007 through 2011.
              Figure 3: CI’s Relocation Incentives Paid for CYs 2007–2011

        $1,600,000                                                                        $1,484,177 
        $1,400,000
                                                                         $1,244,630 
        $1,200,000
        $1,000,000
          $800,000
                                          $616,772        $628,683 
          $600,000
          $400,000       $292,821 
          $200,000
                 $0
                           2007             2008            2009            2010             2011

       Source: CI and the IRS Human Capital Office.

The significant increase in CI’s relocation incentives is largely attributed to the use of temporary
changes of station (TCS)5 relocation incentives. During CYs 2007 through 2009, CI granted
incentives related to permanent changes of station (PCS)6 and began to grant incentives for TCS
in CY 2010. Figure 4 shows the migration from PCS moves to TCS moves.




5
  The relocation to a new POD while performing a long-term assignment, and subsequent return to the previous
POD upon completion of that assignment.
6
  A transfer of an employee from one POD to another POD on a permanent basis.
                                                                                                         Page 7
                              Review of Criminal Investigation’s
                    Relocation Incentives and Post of Duty Neutral Program



               Figure 4: CI’s Relocation Incentives for CYs 2007–2011

                     PCS Incentives                   TCS Incentives

 Calendar                       Total PCS                        Total TCS         Total
  Year        Number of PCS     Incentives    Number of TCS      Incentives      Incentives

    2007           16            $292,821            0                 $0         $292,821

    2008           30            $616,772            0                 $0         $616,772

    2009           23            $628,683            0                 $0         $628,683

    2010           32            $961,058            9            $283,572       $1,244,630

    2011           20            $522,896            26           $961,281       $1,484,177

 Total             121          $3,022,230           35          $1,244,853      $4,267,083
Source: CI.

In contrast to a PCS, a TCS allows employees to relocate to a new POD to perform a long-term
assignment for a period of six to 30 months. CI management stated that employees generally do
not move their entire household and families to the new POD for TCS relocations. Therefore,
relocation expenses are expected to be significantly lower for TCS relocations as compared to
PCS relocations. To make the TCS moves more appealing, CI management offers three TCS
options, as listed in Figure 5.




                                                                                       Page 8
                                  Review of Criminal Investigation’s
                        Relocation Incentives and Post of Duty Neutral Program



                           Figure 5: CI’s TCS Relocation Alternatives

                                                                                            Incentive Percent
       Alternative                                   Entitlements                             of Basic Pay7

TCS + 0: No relocation          Partial relocation entitlements, but does not include
                                                                                      Not Applicable.
incentive.                      reimbursement for the sale/purchase of real estate.

TCS + 1: One-year                                                                           Up to 25% for one
                                Same as above.
relocation incentive.                                                                       year.

TCS + 2: Two-year                                                                           Up to 25% per
                                Same as above.
relocation incentive.                                                                       year for two years.
Source: CI.

Upon completion of a TCS assignment, employees have the option of remaining in that POD and
continuing the assignment or seeking another rotation through a PCS or TCS. The strategy is
designed in part to assist employees in obtaining experiences needed to prepare them for
leadership positions and to reduce relocation expenses. However, CI does not assess the
effectiveness of TCS and PCS relocation incentives to determine whether cost savings exist as a
result of granting a large number of relocation incentives to its employees.

Recommendations
The Chief, CI, should:
Recommendation 1: Evaluate the effectiveness of TCS and PCS assignments as part of CI’s
overall succession planning strategy.
        Management’s Response: IRS management agreed with this recommendation.
        Once all the TCS participants have completed their assignments in May 2013, CI will
        assess the effectiveness of the TCS and PCS assignments.
Recommendation 2: Ensure that CI’s Special Agent Leadership Strategy clearly describes
how relocation(s) will be incorporated in staff development and succession planning.
        Management’s Response: IRS management agreed with this recommendation. The
        Chief, CI, initiated a working group to review CI’s current and historic mobility policies
        for special agents. Once the working group has presented its findings and


7
 Executives and senior managers can be paid up to 25 percent of basic pay. All other employees can be paid up to
15 percent of basic pay; however, the IRS can approve a relocation incentive payment that exceeds 15 percent of
basic pay.
                                                                                                          Page 9
                               Review of Criminal Investigation’s
                     Relocation Incentives and Post of Duty Neutral Program



       recommendations, the Chief, CI, will develop a revised mobility policy that will be
       incorporated into the CI Special Agent Leadership Strategy.

CI officials have not always adhered to the IRS interim relocation policy
We selected a sample of nine CI senior managers and executives who received relocation
expenses and/or relocation incentives from CYs 2007 through 2011 and reviewed relocation
expenses and relocation incentives documentation to determine whether CI followed established
policies.
These nine senior managers and executives claimed $620,445 in reimbursable relocation
expenses during CYs 2007 through 2011. *****Code Number 5*****




 We did not find any other discrepancies related to claims for relocation expenses.
According to the IRS Relocation Incentive Plan, the following factors must be considered in
determining whether a position is likely to be difficult to fill without a relocation incentive:
   1. The availability and quality of candidates possessing the competencies required for the
      position, including the success of recent efforts to recruit candidates for the position or
      similar positions using indicators such as offer acceptance rates, the proportion of
      positions filled, and the length of time required filling similar positions.
   2. The salaries typically paid outside the Federal Government for similar positions.
   3. Recent turnover in similar positions.
   4. Employment trends and labor market factors that may affect the ability of the IRS to
      recruit candidates for similar positions.
   5. Special or unique competencies required for the position.
   6. Agency efforts to use non-pay authorities, such as special training and work scheduling
      flexibilities, to resolve difficulties alone or in combination with a relocation incentive.
   7. The desirability of the duties, work or organizational environment, or geographic
      location of the position.
   8. Other supporting factors.
We found that eight of nine senior managers and executives included in our sample received
relocation incentives. CI authorized 13 relocation incentives totaling $528,379 for these eight
employees during CYs 2007 through 2011. We found the Relocation Incentive Request Forms
for each of these employees indicated that all factors listed above were considered. Supporting

                                                                                             Page 10
                                  Review of Criminal Investigation’s
                        Relocation Incentives and Post of Duty Neutral Program



information attached to the Relocation Incentive Request Form documented the special or unique
competencies required for the position and how the individual selected was qualified for the
position. However, we believe the decision to pay the incentive would be stronger if the
documentation included a list of applicants that applied for the position and specific information
related to their qualifications.
Requests for relocation incentives should have four levels of review and approval: Certification
Manager (usually CI’s Director of Strategy), Secondary Review, Embedded Human Capital
Office Technical Review, and Approver. The certification manager should review the relocation
incentive request to determine whether it meets the eligibility requirements outlined in the IRS
Relocation Incentive Plan and recommend payment of the incentive.
We found that two requests were not properly approved. In one case, the certification manager
also signed as the second-level reviewer on the relocation incentive request. In another case, the
second-level reviewer also signed the form as the approver. To reduce the risk of error or fraud,
each level of review should be signed off by different individuals.
We also found that in two other instances, the certification managers did not recommend
approving two relocation incentive requests. In one of these cases, the Director of Strategy
recommended that CI not approve the request for two reasons:8
    1. *****Code Number 3d*****

    2. If CI approves this request, the IRS would have paid more than $140,000 in incentives
       over a six-year period (averaging about $23,500 per year) to the employee.
Both requests were subsequently approved by the Deputy Chief, CI, and the former Chief, CI.
While the Chief, CI, is ultimately responsible for the decision, responses to the Director’s
comments should have been documented to explain why the recommendation to deny the
incentive request was overridden.

Recommendations
The Chief, CI, should:
Recommendation 3: Require that managers provide additional information to fully support
the need for a relocation incentive. The Relocation Incentive Request Form should be enhanced
to include the pool of candidates who applied for the position to provide sufficient evidence that
the position was difficult to fill in absence of a relocation incentive.



8
 The Director of Strategy submitted this recommendation to the Deputy Chief, CI, via electronic mail in
February 2011.
                                                                                                          Page 11
                              Review of Criminal Investigation’s
                    Relocation Incentives and Post of Duty Neutral Program



       Management’s Response: IRS management agreed with this recommendation. CI
       management will ensure that documentation to support the incentive includes the pool of
       candidates who applied for the position, as applicable.
Recommendation 4: Require that a memorandum is prepared when the certification manager
does not recommend the approval of a relocation incentive request. The memorandum should
state the basis for approving the recommendation after consideration of the certification manager
recommendation. The memorandum should be attached to the relocation incentive request.
       Management’s Response: IRS management agreed with this recommendation. The
       routing process of relocation incentives was modified and made available through interim
       guidance issued on June 22, 2011. All requests are now reviewed by the Human Capital
       Officer, with final approval residing with the Deputy Commissioner for Services and
       Enforcement. Certification is documented by the CI manager and Second-level review is
       documented by the Deputy Chief or Chief of CI.

The Draft Policy for the Post of Duty Neutral Program Contains
Significant Weaknesses, and Program Goals Have Not Been
Established Fully
On September 9, 2011, CI received approval from the IRS CFO for employees to participate in a
reduced per diem pilot program. The goal of the POD Neutral Program was to reduce CI
relocation incentives. Effective October 1, 2011, CI implemented the following policy for the CI
POD Neutral Program:
      CI employees selected for POD neutral positions governed by the reduced per diem pilot
       will sign an agreement acknowledging the reduced per diem for their position, which will
       be effective for the open-ended assignment to the agreed-upon POD location.
      The signed agreement will be included as documentation in each travel authorization
       prior to approval by the approving official.
      CI employees traveling under the reduced per diem POD Neutral Policy will be
       authorized full per diem at the new location for the first 30-day period to allow time
       necessary to find suitable lodging at the reduced lodging allowance.
      Per the CFO, employees traveling under this policy will not be subject to long-term
       taxability for their travel expenses related to law enforcement, in accordance with United
       States Code section 162(a)(3).
We identified significant weaknesses within the POD Neutral Program. Overall, we found that
CI has not finalized the policy, identified the employee requirements to participate in the
program, or defined the metrics to use to evaluate the program effectiveness. Some senior
managers working POD neutral positions are subject to a reduced maximum lodging allowance

                                                                                          Page 12
                                Review of Criminal Investigation’s
                      Relocation Incentives and Post of Duty Neutral Program



of up to $2,700 per month and a maximum meals and incidental expense allowance of up to $300
per month. CI has not documented the methodology used for determining the reduced per diem
rates in the POD Neutral Policy. CI indicated that the POD Neutral Program will continue for up
to one year, after which officials will evaluate the program to determine whether it should be
extended or terminated.
According to the draft Special Agent Leadership Strategy, “Some senior manager positions will
be announced as POD neutral since expanded use of technology allows CI the flexibility of
remote management in some cases.” While the guidance indicates the POD Neutral Program
will be applied to CI senior managers, it does not list the requirements that should be used to
determine which positions will be announced as POD neutral.
We found that the POD Neutral Policy is not consistently applied among program participants.
As an example, a senior manager in a POD neutral position was exempt from the reduced per
diem requirement. The employee was selected as *****Code Number 3d*****, field office in
*****Code Number 3d*****, and his official POD is still shown as*****Code Number
3d*****. According to CI officials, the former Chief, CI, decided the employee would not be
required to adhere to the maximum allowance of $2,700 for lodging and $300 for meals and
incidental expenses.
According to the POD Neutral Policy, senior managers must have an approved POD Neutral
Agreement Form to participate in the program. Senior managers must sign the form and agree to
the reduced per diem rates. However, we found that the form lacks key information and needs to
be improved. The form does not require a justification for working a POD neutral position or the
duration of the agreement, including the estimated end date. We also found that two of the four
senior managers’ POD Neutral Agreement Forms were not completed timely. In one case, the
selecting official signed and dated the agreement, but the employee did not date the agreement.
In the other case, the employee signed the agreement six months after the agreement was
approved by the selecting officials and the employee started working the POD neutral position.9

A feasibility analysis is needed in determining whether the POD Neutral Program
is cost beneficial
CI needs to gather relevant data and perform a thorough analysis to determine whether the POD
Neutral Program is cost beneficial. CI should compare POD neutral employees’ travel expenses
to the estimated costs of relocating employees to determine whether relocation would be a
cheaper alternative. The POD Neutral Program was designed to allow the IRS to address human
capital challenges and reduce costs by allowing employees to incur travel expenses at a reduced
per diem rate. However, because only four employees participating in the POD Neutral Program


9
 The POD Neutral Agreement Form was signed by the senior manager on October 4, 2011, but was approved on
April 4, 2012, six months later.
                                                                                                  Page 13
                              Review of Criminal Investigation’s
                    Relocation Incentives and Post of Duty Neutral Program



actually travel on reduced per diem, CI may not have sufficient program participation necessary
to assess the effectiveness of the program.

Recommendations
We recommend that the Chief, CI, should:
Recommendation 5: Ensure that the POD Neutral Policy is revised and contains the
following key elements:
      The methodology used to determine the reduced per diem rates for lodging and meals and
       incidental expenses.
      Requirements for program participation.
      The performance measurements that will be used to evaluate the program’s effectiveness.
       Management’s Response: IRS management agreed with this recommendation.
       Once the CI Office of Planning and Strategy has collected and reviewed the data with
       regard to cost effectiveness, CI will decide whether or not to continue the pilot CI POD
       Neutral Program. If the program is determined to be viable, CI will work with the Office
       of the Chief Financial Officer to revise the reduced per diem policy. CI will then clarify
       the methodology for determining expenses and the overall program requirements.
Recommendation 6: Ensure that the POD Neutral Agreement Form is enhanced to include
the justification for the POD neutral assignment and the planned time period for the assignment.
Additionally, ensure the agreements are prepared and timely approved and the terms of the
agreement are consistently applied for all employees working POD neutral positions.
       Management’s Response: IRS management agreed with this recommendation. CI
       will ensure the recommended additional items are recorded in the POD Neutral
       Agreement Form with supporting documents. Pursuant to a determination of the pilot
       program’s viability, this recommendation will be enacted.
Recommendation 7: Collect data over the duration of the pilot program and conduct an
analysis to determine the cost effectiveness of the POD Neutral Program.
       Management’s Response: IRS management agreed with this recommendation. CI
       is collecting data for analysis to determine whether the pilot CI POD Neutral Program
       was cost effective.




                                                                                         Page 14
                              Review of Criminal Investigation’s
                    Relocation Incentives and Post of Duty Neutral Program



                                                                                    Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective was to determine whether decisions made to relocate CI executives and
senior managers, or reassign their POD to POD neutral, complied with travel policies,
procedures, and regulations. The Treasury Inspector General for Tax Administration:
I.     Identified policies, procedures, and regulations related to relocating CI employees and
       reassigning their POD to POD neutral.
       A. Determined whether CI has a succession plan designed to ensure CI can obtain and
          develop the talent required to achieve its mission.
       B. Determined whether CI or the IRS has written policies and procedures that document
          when an employee should be relocated for a CI position and when relocation
          expenses and incentives should be paid for a position.
       C. Determined whether CI or the IRS has written policies and procedures that document
          when positions should be listed as POD neutral.
       D. Determined whether reimbursements for long-term travel related to POD neutral
          assignments are taxable.
II.    Identified trends for CI travel and relocation expenses and relocation incentives for Fiscal
       Years or CYs 2007 through 2011.
       A. Analyzed and summarized travel and relocation expenses and incentives for all CI
          employees.
       B. Analyzed and summarized travel expenses for all CI executives and managers with
          POD neutral assignments.
       C. Analyzed and summarized relocation expenses and incentives for all CI executives
          and senior managers.
III.   Determined whether decisions made to relocate CI executives and senior managers, or
       reassign the POD to POD neutral, complied with travel policies, procedures, and
       regulations.
       A. Determined the justification for POD neutral staffing decisions.
       B. Reviewed the travel expenses for POD neutral employees for Fiscal Years 2010 and
          2011.


                                                                                           Page 15
                                Review of Criminal Investigation’s
                      Relocation Incentives and Post of Duty Neutral Program



        C. Selected a judgmental sample1 of nine CI executives and senior managers who
           accepted positions between Calendar Years 2007 and 2011, and determined whether
           the IRS paid reimbursements for relocations and relocation incentives in accordance
           with travel policies, procedures, and regulations.




1
 A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the
population.
                                                                                                  Page 16
                            Review of Criminal Investigation’s
                  Relocation Incentives and Post of Duty Neutral Program



                                                                Appendix II

                Major Contributors to This Report

Kevin P. Riley, Director
James Douglas, Supervisory Program Analyst
Michelle Griffin, Lead Program Analyst
Jacqueline Nguyen, Senior Auditor




                                                                      Page 17
                             Review of Criminal Investigation’s
                   Relocation Incentives and Post of Duty Neutral Program



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Assistant Deputy Commissioner for Operations Support OS
Chief, Agency-Wide Shared Services OS:A
Chief Financial Officer OS:CFO
Deputy Chief, Criminal Investigation SE:CI
Human Capital Officer OS:HC
Chief Counsel CC
National Taxpayer Advocate TA
Deputy, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC




                                                                       Page 18
                                 Review of Criminal Investigation’s
                       Relocation Incentives and Post of Duty Neutral Program



                                                                            Appendix IV

 Relocation Incentives by Internal Revenue Service
Business Unit for Calendar Years 2007 Through 2011

                                    Number of               Total            Average
                                    Relocation            Relocation        Relocation
   IRS Business Unit
                                    Incentives            Incentives        Incentive
 Appeals                                2                   $      75,882   $        37,941
 Agency-Wide Shared
                                          2                 $     45,175    $       22,588
 Services
 Criminal Investigation                 156                 $   4,267,083   $       27,353
 Communications and
                                          1                 $     24,334    $       24,334
 Liaison
 Counsel                                  2                 $     50,000    $       25,000
 Human Capital Office                     1                 $     37,150    $       37,150
 Large Business and
                                          4                 $    100,000    $       25,000
 International
 Modernization and
 Information                             11                 $    205,291    $       18,663
 Technology Services
 National Taxpayer
                                          2                 $     50,967    $       25,484
 Advocate
 Small Business/
                                          6                 $    171,801    $       28,634
 Self-Employed
 Tax Exempt/
                                          2                 $     35,000    $       17,500
 Government Entities
 Wage and Investment                     44                 $    856,170    $       19,458
                     Total              233                 $   5,918,853   $       25,403
Source: CI Finance Office and IRS Human Capital Office.




                                                                                   Page 19
                                   Review of Criminal Investigation’s
                         Relocation Incentives and Post of Duty Neutral Program



                                                                                                Appendix V

        Criminal Investigation Leadership Development
             Program – Experience Requirements

 This table was extracted from the CI draft Special Agent Leadership
 Selection/Development/Succession Planning Strategy. CI developed the table to assist
 employees in planning their management careers and identifying what types of experience will
 make them highly qualified for specific leadership positions in CI. CI officials indicated that
 special agents must periodically relocate to obtain the experience necessary to become senior
 managers and executives within CI.
       Position                                          Progression Options
                                                                                                   Supervisory
                                                                       Scheme Development         Special Agent
                              Supervisory           Headquarters
     Special Agent                                                       Center Resident           (Computer
                             Special Agent            Analyst
                                                                         Agent in Charge          Investigative
                                                                                                    Specialist)
                           National Criminal       Senior Resident
                                                                                                   Undercover
                         Investigation Training        Course
                                                                                                    Program
                           Academy Special           Developer/
                                                                                                    Manager
                          Agent Investigations       Instructor
                                                                                                 Organized Crime
                                                                                                      Drug
      Supervisory                                                         Director of Field
                          Headquarters Analyst         Attaché                                    Enforcement
     Special Agent                                                       Operations Analyst
                                                                                                   Task Force
                                                                                                   Coordinator
                                                                         National Criminal
                                                                       Investigation Training
                           Supervisory Special                                                     Undercover
                                                  Assistant Special   Academy Special Agent
                            Agent Storefront                                                        Program
                                                  Agent in Charge         Investigations or
                                                                                                    Manager
                                                                      Senior Resident Course
                                                                        Developer/Instructor
  Senior Headquarters          Supervisory          Assistant Special
                                                                        Headquarters Liaison
        Analyst               Special Agent         Agent in Charge
   Assistant Special          Special Agent          Headquarters           Headquarters
    Agent in Charge             in Charge          Assistant Director    Associate Director
     Special Agent             Headquarters
                                                    Deputy Director        Chief of Staff
       in Charge            Associate Director
     Headquarters             Special Agent
                                                    Deputy Director        Chief of Staff
   Associate Director           in Charge
Source: CI draft Special Agent Leadership Selection/Development/Succession Planning Strategy.



                                                                                                       Page 20
                Review of Criminal Investigation’s
      Relocation Incentives and Post of Duty Neutral Program



                                                    Appendix VI

Management’s Response to the Draft Report




                                                          Page 21
          Review of Criminal Investigation’s
Relocation Incentives and Post of Duty Neutral Program




                                                    Page 22
          Review of Criminal Investigation’s
Relocation Incentives and Post of Duty Neutral Program




                                                    Page 23
          Review of Criminal Investigation’s
Relocation Incentives and Post of Duty Neutral Program




                                                    Page 24
          Review of Criminal Investigation’s
Relocation Incentives and Post of Duty Neutral Program




                                                    Page 25
          Review of Criminal Investigation’s
Relocation Incentives and Post of Duty Neutral Program




                                                    Page 26
